      Office of Inspector General
      Report of Audit




                  Grants


Improving Region 5's EnPPA/PPG Program


         Audit Report No. 2000-P-00008



               February 29, 2000
Inspector General Division
 Conducting the Audit:       Northern Audit Division
                             Chicago, Illinois


Region Covered:              Region 5


Offices Involved:            Office of Strategic Environmental Analysis
                             Air and Radiation Division
                             Resources Management Division
                             Superfund Division
                             Waste, Pesticides and Toxics Division
                             Water Division


Auditors:                    Janet Norman
                             Robert Evans
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            OFFICE OF THE INSPECTOR GENERAL
                                   NORTHERN DIVISION
                              77 WEST JACKSON BOULEVARD
                                  CHICAGO, IL 60604-3590

                                        February 29, 2000

MEMORANDUM

SUBJECT:       Final OIG Report No. 2000-P-00008
               Improving Region 5's EnPPA/PPG Program


FROM:          Charles M. Allberry
               Acting Divisional Inspector General for Audits
               Northern Division

TO:            Francis X. Lyons
               Regional Administrator, Region 5

        Attached is our final report on Region 5's Implementation and Oversight of the
Environmental Performance Partnership Agreements (EnPPA)/Performance Partnership Grants
(PPG) Program. The report contains recommendations and actions the Agency has taken or plans
to take. We appreciate your staffs’ efforts in working with us during this evaluation and the
prompt action that you are taking to address the recommendations.

        This audit report contains findings that describe problems the Office of Inspector General
(OIG) has identified and corrective actions the OIG recommends. This audit report represents the
opinion of the OIG and the findings contained in this audit report do not necessarily represent the
final EPA position. Final determinations on matters in this audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures.

Action Required

        In responding to the draft report, your office provided corrective actions, with milestone
dates, for each recommendation. Therefore, no further response is required, and we are closing
this report in our tracking system. Please track all corrective actions in the Management Audit
Tracking System.

       We have no objections to the further release of this report to the public.

      If you or your staff have any questions regarding the report, please contact me at (312)
353-4222 or Janet Norman, Senior Auditor, at (312) 886-0510.
                                           Improving Region 5's EnPPA/PPG Program



                  EXECUTIVE SUMMARY
INTRODUCTION
AND OBJECTIVES    The U.S. Environmental Protection Agency (EPA) Region 5
                  awarded more than $45 million in fiscal year 1999 performance
                  partnership grants (PPG) to provide recipients flexibility, reduce
                  administrative burdens and costs, strengthen partnerships, and
                  improve environmental results. EPA's 1997 strategic plan states
                  that the President's “performance partnership” reinvention initiative
                  provides for increased flexibility in how a program is run in
                  exchange for increased accountability for results. A PPG is a multi-
                  program grant made to a recipient from funds allocated and
                  otherwise available for a specific environmental program. PPGs are
                  critical tools for implementing performance partnerships. An
                  Environmental Performance Partnership Agreement (EnPPA) is a
                  broad strategic document containing negotiated environmental
                  priorities and goals. The EnPPA may also include specific program
                  commitments that are incorporated by reference in the PPG.

                  Our audit objectives were to answer the following questions:

                  C      Is Region 5 effectively implementing its EnPPA/PPG
                         program to ensure that recipients accomplish overall PPG
                         program goals?

                  C      Has Region 5 negotiated work plans that include adequate
                         accountability?

                  C      Does Region 5's oversight ensure that recipients meet work
                         plan commitments and use funds efficiently and effectively?

AREAS FOR
IMPROVEMENT AND   Region 5's EnPPA/PPG program could benefit from improved
RECOMMENDATIONS   communication. Increased use of environmental outcome
                  performance measures would help provide accountability.
                  Implementation of a regional post-award grant policy and an air
                  grant match calculation checklist will help provide financial
                  accountability. Finally, as part of our audit we looked at how
                  regional activities on EnPPAs/PPGs fit into the Government

                                    i

                                                                  Report 2000-P-00008
                                                       Improving Region 5's EnPPA/PPG Program

                             Performance and Results Act (Results Act) goals and found that the
                             activities could come up under multiple goals.

Communication Key to         Region 5 has not fully met stated goals of: (1) increased
Success                      flexibility, (2) reduced administrative burden, (3) strengthened
                             partnerships, and (4) improved environmental results. Causes
                             include: communication breakdowns between Region 5 and the
                             states and within the Region, and a lack of authority for some
                             Region 5 EnPPA team members to negotiate for their program.
                             One Region 5 state is evaluating continued participation due to
                             funding delays in a previous year. One tribe has chosen not to
                             continue to participate because the program did not meet their
                             needs. Finally, according to officials of another state, they have
                             chosen not to continue to participate due to funding delays and
                             state management changes.

Performance Measures         Through the use of performance measures, Region 5 has negotiated
Linked to Accountability     work plans that provide some accountability, but there is room for
                             improvement. EnPPAs are required to include core performance
                             measures. They also include regional measures and state measures.
                             All measures should meet four criteria, they should be: quantifiable,
                             verifiable, measurable, and time specific. The measures in the
                             agreements should also move toward focusing on outcome
                             measures and environmental results. We found that the quality of
                             measures in the work plans varied. Because outcome measures and
                             measures meeting the four criteria are the best indicators of
                             environmental results, it is difficult for regional officials to assess
                             whether progress is being made toward environmental results.

Improvements to Financial Regional oversight ensures that recipients accomplish work plan
Accountability            objectives. However, limited post-award review of PPGs prevents
                          officials from being able to assess whether funds are used efficiently
                          and effectively. Post-award grants management was a fiscal year
                          1998 Agency level material weakness and Region 5 material
                          weakness. The Region 5 Acquisition and Assistance Branch
                          recently developed a written policy that, when implemented, should
                          provide additional financial accountability and increase the
                          likelihood that funds are used efficiently and effectively. Further
                          changes are needed to improve Region 5 program level confidence
                          in the work plans.

                                                ii

                                                                              Report 2000-P-00008
                                                   Improving Region 5's EnPPA/PPG Program

Other Matters: EnPPAs/     EPA’s Results Act structure allows for some activities supporting
PPGs and the Results Act   EnPPAs/PPGs to be charged under more than one goal. The
                           Results Act was implemented to more accurately account for costs
                           associated with program goals and subobjectives. Activities to
                           develop EnPPAs/PPGs are multimedia, and there is no funding
                           allocated for EnPPA/PPG activities at the regional level. Also, due
                           to an inherent conflict between PPG reporting and the Results Act,
                           funding distributed to the states through PPGs will be reported
                           under the Results Act based on budgeted amounts, not actual
                           expenditures. Without changes, Agency reports of costs associated
                           with the PPG subobjective will be understated, and reports will be
                           misleading.

                           Details on each of these findings and recommendations are
                           contained in Chapters 2 through 5.

AGENCY COMMENTS
AND ACTIONS                In response to the draft report, the Regional Administrator agreed
                           with the recommendations. Action plans with milestone dates were
                           also provided. A summary of the response and action plans is
                           included throughout the report, and a complete copy of the
                           response is included in appendix 1.

OIG EVALUATION
                           The Agency’s proposed actions, when completed, will address the
                           findings and recommendations in this report.




                                            iii

                                                                         Report 2000-P-00008
                        Improving Region 5's EnPPA/PPG Program




[This page intentionally left blank.]




                 iv

                                           Report 2000-P-00008
                                                                            Improving Region 5's EnPPA/PPG Program

                                                 Table of Contents

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

CHAPTERS

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                     What is a PPG? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                     What is an EnPPA? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                     EnPPAs/PPGs and NEPPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                     How many Region 5 states and tribes have a PPG and/or an EnPPA? . . . 3
                     Region 5 EnPPA/PPG Program Organizational Structure . . . . . . . . . . . . 4
              Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
              Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

2        IMPLEMENTATION IMPROVEMENTS WILL HELP ACCOMPLISH PROGRAM
         GOALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
              Program Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
              Barriers to Meeting Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
              Results of Not Meeting Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
              Agency Comments and Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
              OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

3        BETTER MEASURES WILL HELP IMPROVE ACCOUNTABILITY . . . . . . . . . . .                                                       13
              Guidance Defines Work Plan and Performance Measure Requirements . . . . . . .                                           13
              EnPPAs Provide Limited Accountability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       14
              Better Measures Can Improve Accountability . . . . . . . . . . . . . . . . . . . . . . . . . .                          15
              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      15
              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             16
              Agency Comments and Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     16
              OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          17



                                                                   v

                                                                                                            Report 2000-P-00008
                                                                     Improving Region 5's EnPPA/PPG Program

4   CHANGES NEEDED TO ASSESS USE OF FUNDS . . . . . . . . . . . . . . . . . . . . . . . . .                                    18
        Regulations and PPG Guidance Define EPA Grant Oversight . . . . . . . . . . . . . .                                    18
        Region 5 Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         19
        Difficult to Assess Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              20
        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            20
        Agency Comments and Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    21
        OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         21

5   OTHER MATTERS: CHANGES NEEDED TO MEET THE INTENT OF THE
    RESULTS ACT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    22
         Results Act Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            22
         EnPPA/PPG Program and Results Act Conflict . . . . . . . . . . . . . . . . . . . . . . . .                            23
         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           25
         Agency Comments and Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   25
         OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        25

EXHIBIT

1   SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      26
         Effective Implementation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            26
         Adequate Accountability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           26
         Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   27
         Other Steps . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     27

APPENDICES

1   REGION 5 REGIONAL ADMINISTRATOR’S RESPONSE TO THE DRAFT
         REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

2   DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35




                                                           vi

                                                                                                    Report 2000-P-00008
                                                     Improving Region 5's EnPPA/PPG Program

                                 ABBREVIATIONS
EnPPA         Environmental Performance Partnership Agreement

EPA           U.S. Environmental Protection Agency

IEPA          Illinois Environmental Protection Agency

MPCA          Minnesota Pollution Control Agency

NEPPS         National Environmental Performance Partnership System

OEPA          Ohio Environmental Protection Agency

OIG           Office of Inspector General

PPG           Performance Partnership Grant

QAPP          Quality Assurance Program Plan

Results Act   Government Performance and Results Act (also known as GPRA)




                                               vii

                                                                        Report 2000-P-00008
                        Improving Region 5's EnPPA/PPG Program




[This page intentionally left blank.]




                viii

                                           Report 2000-P-00008
                                   Improving Region 5's EnPPA/PPG Program

                   CHAPTER 1
                   Introduction
PURPOSE
          The U.S. Environmental Protection Agency's (EPA) 1997 strategic
          plan states that the President's “performance partnership”
          reinvention initiative provides for increased flexibility in how a
          program is run in exchange for increased accountability for results.
          Performance partnerships are part of EPA’s approach to working
          with states and tribes (recipients) to better implement
          environmental programs and achieve environmental results. A
          performance partnership grant (PPG) is a critical tool for EPA's
          implementation of performance partnerships. Both performance
          partnerships and PPGs represent a significant shift in how EPA
          and its partners work together to address human health and
          environmental protection.

          This audit is part of the Office of Inspector General’s (OIG) PPGs
          and National Environmental Performance Partnership System
          Issue Area Plan, dated September 1998. The OIG made a
          commitment to the Agency to assess EPA’s PPG program
          implementation and determine what improvements were needed to
          ensure EPA implemented the program effectively and achieved
          environmental results.

          Our audit objectives were to answer the following questions:

          C      Is Region 5 effectively implementing its EnPPA/PPG
                 program to ensure that recipients accomplish overall PPG
                 program goals?

          C      Has Region 5 negotiated work plans that include adequate
                 accountability?

          C      Does Region 5's oversight ensure that recipients meet
                 work plan commitments and use funds efficiently and
                 effectively?




                            1

                                                         Report 2000-P-00008
                                             Improving Region 5's EnPPA/PPG Program

BACKGROUND
What is a PPG?      A PPG is a multi-program grant made to a recipient from funds
                    allocated and otherwise available for a specific environmental
                    program. EPA developed PPGs in response to recommendations
                    from internal and external stakeholders to: (1) increase recipient
                    flexibility, (2) achieve administrative savings by streamlining the
                    grants process, (3) strengthen partnerships, and (4) help recipients
                    improve environmental results. These recommendations formed
                    the basis for the PPG program's purposes and goals. Beginning in
                    fiscal year 1996, EPA received authority to award PPGs.

What is an EnPPA?   An environmental performance partnership agreement (EnPPA) is
                    an agreement between a region and a state that describes jointly
                    developed goals, objectives, and priorities. The agreements
                    typically include the strategies for meeting commitments, the roles
                    and responsibilities of the state and EPA, and the measures for
                    assessing progress. PPG program commitments must be outlined
                    in a work plan, and most Region 5 states that opt to use a PPG
                    often have the EnPPA serve as the PPG work plan.

EnPPAs/PPGs         On May 17, 1995, state and EPA leaders signed a Joint
and NEPPS           Commitment to Reform Oversight and Create a National
                    Environmental Performance Partnership System. The objective of
                    this agreement was to accelerate the transition to a new working
                    relationship between EPA and states–one which reflected the
                    advancement made in environmental protection over the preceding
                    two decades by both states and EPA. In addition, the agreement
                    recognized that existing policies and management approaches must
                    be modified to ensure continued environmental progress.

                    EPA PPG guidance, dated October 6, 1998, states that the key
                    goals this new partnership agreement shares with PPGs are:

                           to allow States and EPA to achieve improved
                           environmental results by directing scarce public
                           resources toward the highest priority, highest value
                           activities; to provide States with greater flexibility
                           to achieve those results; to improve public
                           understanding of environmental conditions and


                                      2

                                                                    Report 2000-P-00008
                                                               Improving Region 5's EnPPA/PPG Program

                                           choices; and to enhance accountability to the public
                                           and taxpayers.

                                   While the National Environmental Performance Partnership
                                   System (NEPPS) was an agreement between states and EPA, many
                                   concepts of this performance partnership also apply to EPA's
                                   relationship with tribes. Under performance partnerships, EPA
                                   and its partners are expected to achieve more integrated
                                   environmental management and enhanced environmental results.
                                   This new partnership should also enable EPA and its partners to
                                   move beyond relying solely on numbers of permits issued,
                                   inspections made, or similar measures, to performance measures
                                   that more directly reflect changes in environmental quality.

How many Region 5 states In fiscal year 2000, four of the six states in Region 5 have PPGs
and tribes have a PPG    and EnPPAs1. In fiscal year 1999, Region 5 awarded more than
and/or an EnPPA?         $45 million in PPGs to four state environmental programs and
                         three state pesticide programs. Another Region 5 state had an
                         EnPPA, but no PPG. The state environmental programs all used
                         an EnPPA to serve as the PPG work plan. The state pesticide
                         programs do not use EnPPAs, and we did not review these PPGs.
                         In fiscal year 1998, one Region 5 tribe had a PPG only (tribes do
                         not use EnPPAs).




        1
           Region 5 consists of six states–Illinois, Indiana, Michigan, Minnesota, Ohio, and Wisconsin. Twenty-
five of the 35 Federally recognized tribes in Region 5 have two or more continuing grant programs that could be
combined into a PPG.

                                                        3

                                                                                          Report 2000-P-00008
                                                  Improving Region 5's EnPPA/PPG Program




                                                    Table 1:
                              Region 5 States and Tribes with PPGs and/or EnPPAs
                                                     2000           1999           1998
                          Illinois               Both           Both           Both
                          Indiana                Both           Both           Both
                          Minnesota              Both           Both           Both
                          Ohio                   None           Both           Both
                          Wisconsin              Both           EnPPA only     EnPPA only
                          Fond du Lac            None           None           PPG only

Region 5 EnPPA/PPG       EPA developed interim guidance in 1996 and 1998 that served as
Program Organizational   the operating guidance for states and tribes interested in applying
Structure                for PPGs. Regional offices were to use this operating guidance to
                         develop and implement their EnPPA/PPG programs.

                         Region 5 established a NEPPS coordinator in the Office of
                         Strategic Environmental Analysis. The NEPPS coordinator leads
                         the NEPPS workgroup, which consists of one team leader
                         representing each Region 5 state with an EnPPA and/or PPG,
                         representatives of the Resources Management Division (grants),
                         the Office of Regional Counsel, and the Office of Inspector
                         General in an advisory role. The Region 5 state EnPPA team
                         leaders are responsible for overseeing and coordinating the
                         development of the EnPPAs for their respective states. The team
                         leaders have teams that consist of one representative from each
                         program office. These team members are usually project officers
                         who then coordinate negotiation issues with program technical
                         staff. The system was designed to leave major programmatic
                         negotiations and decisions in the programs, where the expertise on
                         environmental issues and program management remains.

                         Regional grants specialists are responsible for PPG administrative
                         functions. Region 5's grants specialists are responsible for

                                           4

                                                                        Report 2000-P-00008
                                       Improving Region 5's EnPPA/PPG Program

              reviewing PPG applications and related forms and certifications,
              preparing documentation related to the grant award and
              amendments, reviewing financial status reports, and obtaining
              verification of recipients' PPG funding match.

SCOPE AND
METHODOLOGY   We performed our audit in accordance with generally accepted
              government auditing standards. We conducted our fieldwork from
              July 1999 through November 1999. We specifically reviewed three
              states’ and one tribe’s EnPPA and/or PPG (for time periods
              beginning in fiscal year 1998), and the associated self-assessments,
              and annual performance reports.

              We performed our fieldwork at Region 5 in Chicago, Illinois. We
              also visited the Illinois Environmental Protection Agency in
              Springfield, Illinois; and the Fond du Lac Reservation in
              Minnesota.

              For further details on scope and methodology, see exhibit 1.

PRIOR AUDIT
COVERAGE      The OIG has not issued any audit reports related to Region 5's
              EnPPA/PPG program implementation. However, the OIG
              conducted a joint management assistance review with Region 5
              staff of Indiana’s 1997 PPG and EnPPA and the negotiation
              process for the 1998 PPG and EnPPA. As a result of the
              management assistance review, OIG and regional staff suggested
              areas for improvement that included:

              C      communication–overall, to reach agreement upon level of
                     detail in the document, to distribute grant guidance, and on
                     enforcement;
              C      continuity of the process among state managers;
              C      state’s ability to meet reporting commitments;
              C      development and inclusion of performance
                     measures/indicators; and
              C      state financial system changes to promote flexibility.




                                5

                                                             Report 2000-P-00008
                        Improving Region 5's EnPPA/PPG Program

The OIG has also served on the regional EnPPA teams in an
advisory role. Our goals were to ensure the region implemented
proper policies and procedures for NEPPS and to identify any
barriers or problems. In this capacity, we have reviewed the
EnPPAs prior to regional approval to (1) assess whether the work
plans were consistent with the intent of NEPPS, and (2) determine
whether the documents serving as PPG work plans met the basic
requirements of PPG guidance.

The U.S. General Accounting Office issued a report,
ENVIRONMENTAL PROTECTION: Collaborative EPA-State
Effort Needed to Improve New Performance Partnership System,
dated June 21, 1999. GAO findings included:

C      The development of outcome measures was impeded by an
       absence of baseline data, inherent difficulty in quantifying
       certain results, difficulty of linking program activities to
       environmental results, and considerable resources needed
       for high-quality performance measurement.

C      Factors that complicated EPA's oversight included: (1)
       statutory and/or regulatory requirements in some cases
       prescribed the kind of oversight required of states by EPA,
       (2) reluctance by EPA staff to reduce oversight without the
       measures in place to ensure that environmental quality
       would not be compromised, and (3) the inherent difficulty in
       “letting go” on the part of some EPA staff that have
       implemented the existing EPA-state oversight arrangement
       for years.

C      There were a number of reported benefits associated with
       the new system that included (1) improving communication
       about program priorities among EPA and state program
       staff and (2) allowing states the option to shift resources
       under the PPG program.




                 6

                                               Report 2000-P-00008
                                          Improving Region 5's EnPPA/PPG Program

                       CHAPTER 2
               Implementation Improvements
            Will Help Accomplish Program Goals

                 Region 5 has not fully met stated goals of: (1) increased
                 flexibility, (2) reduced administrative burden, (3) strengthened
                 partnerships, and (4) improved environmental results. Causes
                 include: communication breakdowns between Region 5 and the
                 states and within the Region, and a lack of authority for some
                 Region 5 EnPPA team members to negotiate for their program.
                 One Region 5 state is evaluating continued participation due to
                 funding delays in a previous year. One tribe has chosen not to
                 continue to participate because the program did not meet their
                 needs. Finally, according to officials of another state, they have
                 chosen not to continue to participate due to funding delays and
                 state management changes.


PROGRAM GOALS
                 EPA guidance, dated July 1996 and October 6, 1998, describes
                 four goals of the PPG program.

                 C      Flexibility–Recipients will have the flexibility to address
                        their highest environmental priorities, while continuing to
                        address core program requirements.

                 C      Administrative Savings–Recipients and EPA can reduce
                        administrative burdens and costs by reducing the number of
                        grant applications, budgets, work plans, and reports.

                 C      Strengthened Partnerships–EPA will develop
                        partnerships with recipients where both parties share the
                        same environmental and program goals and deploy their
                        unique resources and abilities to jointly accomplish those
                        goals.

                 C      Improved Environmental Results–Recipients can
                        improve environmental results and more effectively link

                                   7

                                                                 Report 2000-P-00008
                                        Improving Region 5's EnPPA/PPG Program

                       program activities with environmental goals and program
                       outcomes; and develop innovative pollution prevention,
                       ecosystem, and community-based strategies.

BARRIERS TO
MEETING GOALS   Communication breakdowns adversely affected Region 5's
                partnership with two states and one tribe. For example, the Ohio
                Environmental Protection Agency (OEPA) and Region 5 did not
                communicate adequately to resolve a water program quality
                assurance program plan (QAPP) issue, causing funding delays.
                Illinois Environmental Protection Agency (IEPA) also experienced
                funding delays that were a result of poor communication on an
                over allocation of water funds. Lastly, the Fond du Lac tribe
                experienced communication problems with a QAPP that nearly
                caused funding delays.

                C      Region 5 officials did not inform OEPA officials that there
                       were problems with the OEPA Water Program QAPP.
                       Region 5 officials elected to withhold all PPG funds,
                       pending resolution of the QAPP issue, even though this
                       portion of the grant represented only 21 percent of the total
                       PPG. OEPA officials eventually received the PPG funds in
                       the last month of the grant period when the state was
                       coming close to not meeting payroll. Region 5 water
                       program officials took steps to address QAPP approval
                       delays and communication problems. Regional officials
                       included a term and condition as part of the fiscal year
                       1999 PPG to address quality assurance issues with the
                       Clean Water Act Section 106 program and initiated a
                       process to improve communications among programs and
                       states.

                C      Region 5 officials did not communicate the seriousness of
                       an over allocation of water program funds in IEPA’s fiscal
                       year 1999 application. Due to a discrepancy of $16,500
                       between the application amount for the Public Water
                       Supply System program and the actual allotment from U.S.
                       EPA Headquarters, regional officials could not release the
                       total PPG funds of about $16 million. When IEPA learned


                                 8

                                                               Report 2000-P-00008
                         Improving Region 5's EnPPA/PPG Program

       about the discrepancy, and that it would prevent the release
       of funds, IEPA was already in jeopardy of not meeting
       payroll. At the beginning of the fiscal year 2000 EnPPA
       development process, the Regional Administrator
       committed to IEPA that communication will be better.
       Both IEPA and regional officials agreed to work to keep
       each other better informed of problems and to elevate
       issues earlier.

C      Fond du Lac tribal officials submitted a QAPP to Region 5
       and it was not approved for 18 months. Region 5
       threatened to deny a grant extension and withhold all of the
       tribe’s PPG funds pending approval of the QAPP, even
       though the QAPP affected only a portion of the total grant
       funds. The QAPP was not approved until a Region 5
       Assistance Agreement Branch official intervened resulting
       in the release of funds to the tribe.

Some barriers to reaching program goals are beyond Region 5's
control. For example, state expectations have often exceeded what
Region 5 has been able to meet. Many state officials expected
considerable reductions in oversight and reporting activities.
Regional officials had already taken steps to reduce reporting
requirements prior to the introduction of NEPPS. Region 5
officials were therefore limited in what remained that could be
reduced, due to regulations, reporting requirements, and statutory
requirements. Some states are also limited in flexibility due to
state financial systems or the political climate.

Negotiation of enforcement language has continued to be difficult
for Region 5 and the states. For example, Wisconsin and Region 5
officials were in negotiations for months on general enforcement
language that outlined the state and Federal enforcement roles, and
specific enforcement commitments for the air and RCRA
programs. State officials did not agree with the characterization of
the Federal enforcement role. Later, state and regional officials
did not agree on the level of detail and commitments for the air
and RCRA programs.



                  9

                                               Report 2000-P-00008
                                          Improving Region 5's EnPPA/PPG Program


RESULTS OF NOT
MEETING GOALS    One state and one tribe have dropped out of the PPG program.
                 Another state is evaluating its continued participation. These
                 states and the tribe have realized limited improvements in
                 partnership with Region 5. Michigan, the only Region 5 state that
                 has not tried an EnPPA or a PPG, is not participating until state
                 officials see that the benefits of the EnPPA/PPG program
                 outweigh the costs. As a result of the problems identified above,
                 Ohio has withdrawn from the program due to funding delays and
                 OEPA management changes. Illinois has threatened to withdraw
                 from the program, if Region 5 does not make improvements to
                 ensure funds are received timely. Wisconsin threatened to
                 withdraw from the program during enforcement language and
                 commitment negotiations, but now has a finalized agreement. The
                 Minnesota Fond du Lac tribe has withdrawn from the program
                 because their expectations were not met. Tribal officials saw little
                 improvement in partnership with Region 5. Also, though the tribe
                 was able to experience some flexibility benefits, it was not to the
                 extent expected, based on experience with tribal grants from other
                 Federal entities.

                 The IEPA has been able to make changes to help realize the
                 benefits of flexibility. The previous IEPA Director instructed each
                 program to set aside 5.5 percent of Federal funds for pollution
                 prevention and regulatory innovation programs. The pollution
                 prevention program funded an intern program where interns
                 worked on-site with companies to identify pollution prevention
                 opportunities. Due to the success of the program, many companies
                 were eager to participate.

CONCLUSION
                 Not all of the benefits that EPA and states expected from the
                 EnPPA/PPG program were realized, especially the goal of
                 improved environmental results. Some of this was the
                 responsibility of Region 5 officials, but others were based on high
                 state expectations. Some states also haven’t taken advantage of the
                 opportunity to shift funds, to the extent expected. Working
                 together in the future, state and regional officials can learn from


                                   10

                                                                 Report 2000-P-00008
                                          Improving Region 5's EnPPA/PPG Program

                  past experiences and continue efforts to work together and
                  improve partnerships.

RECOMMENDATIONS
                  We recommend the Regional Administrator:

                  2-1.   Develop and document an action plan, with milestone dates
                         and detailed descriptions of the Region 5 water program
                         plan to improve the QAPP process (approval and
                         communication).

                  2-2.   Develop and document a process to elevate EnPPA/PPG
                         concerns to the Region 5 Senior Leadership Team. For
                         example, if one office or division leading negotiations
                         makes a decision that could adversely impact the entire
                         EnPPA/PPG (such as withholding funding), that issue
                         should be brought to the attention of senior regional
                         management.

                  2-3.   Require regional officials to maintain open communication
                         with state officials after an EnPPA is signed, and until
                         grant payments are issued. For example, regional EnPPA
                         team leaders should work more closely with regional grant
                         program officials to ensure the state receives funds timely
                         and identify early anything that may affect timely receipt
                         of funds.

                  2-4.   Work with participating states to develop a strategy to
                         overcome barriers to accomplishing the four PPG program
                         goals. Promote information sharing of best practices
                         among states, for example, obtain examples from other
                         regions and states on their successful efforts.

AGENCY COMMENTS
AND ACTIONS       The Regional Administrator concurred with the recommendations.
                  The Water Division, along with the Resources Management
                  Division, have taken steps to improve the quality assurance
                  process. Water Division officials will work with all interested


                                   11

                                                                Report 2000-P-00008
                                          Improving Region 5's EnPPA/PPG Program

                 parties to conduct an in-depth review of the events that occurred
                 surrounding the Fond du Lac tribe QAPP.

                 The document entitled “Region 5 EnPPA/PPG Process,”
                 establishes roles and responsibilities, including when issues need
                 to be brought to the attention of upper management. The Region
                 will continue to stress the need for coordination and elevation of
                 issues as needed. The Region will also amend the document by
                 March 31, 2000 to include a discussion of the need to continue
                 discussions with a state during the period between finalizing the
                 EnPPA and payment of the grant. The State/EPA Grants
                 Workgroup has also discussed this issue and is developing a
                 regional policy to ensure states receive funds as soon as possible.

                 The Region will hold another meeting with participating NEPPS
                 states during 2000 to discuss best practices and development of
                 environmental outcome measures.

OIG EVALUATION
                 The proposed actions, when implemented will address the findings
                 and recommendations.




                                   12

                                                                 Report 2000-P-00008
                                            Improving Region 5's EnPPA/PPG Program

                          CHAPTER 3
                   Better Measures Will Help
                    Improve Accountability

                   Through the use of performance measures, Region 5 has
                   negotiated work plans that provide some accountability, but there
                   is room for improvement. EnPPAs are required to include core
                   performance measures. They also include regional measures and
                   state measures. All measures should meet four criteria, they
                   should be: quantifiable, verifiable, measurable, and time specific.
                   The measures in the agreements should also move toward focusing
                   on outcome measures and environmental results. We found that
                   the quality of measures in the work plans varied. Because
                   outcome measures and measures meeting the four criteria are the
                   best indicators of environmental results, it is difficult for regional
                   officials to assess whether progress is being made toward
                   environmental results.


GUIDANCE DEFINES
WORK PLAN AND      The 1996 PPG guidance outlines PPG work plan requirements as
PERFORMANCE        the basis for the management and evaluation of performance under
MEASURE            the grant agreement. The PPG work plan should include core
REQUIREMENTS       program commitments (goals, performance measures, program
                   activities) derived from statutes, regulations, and standing legal
                   agreements between EPA and recipients. Performance measures
                   that are PPG program commitments must be time-specific,
                   measurable, quantifiable, and verifiable. In addition, EPA
                   encourages all recipients to adopt outcome and output-oriented
                   performance measures that track program performance and
                   environmental conditions and trends.

                   Core performance measures are a limited set of national measures
                   designed to help gauge progress toward protection of the
                   environment and human health and provide a national picture of
                   the status of the environment. EPA and the Environmental
                   Council of the States developed core performance measures to


                                     13

                                                                    Report 2000-P-00008
                                            Improving Region 5's EnPPA/PPG Program

                   help focus EPA and state attention on improving how they measure
                   the effectiveness of environmental protection efforts.

                   Appropriate accountability provisions are essential in designing the
                   new PPG program. The PPG guidance states that a fundamental
                   goal of EPA’s efforts to design accountability provisions into
                   PPGs is to begin moving Federal, state, and tribal programs toward
                   the use of results-oriented measures of environmental and program
                   performance that are understandable and meaningful to the public.
                   Further, the work plan should also establish procedures (e.g.,
                   midyear and end-of-year reviews, reporting requirements, joint
                   activities) that EPA and the recipient will use for evaluating
                   accomplishments, discussing progress, and making adjustments to
                   meet milestones. The PPG guidance states that EPA should work
                   with recipients to balance the need to maintain core program
                   requirements with the need to incorporate program flexibility and
                   move toward program performance measures and environmental
                   indicators.

EnPPAs PROVIDE
LIMITED ACCOUNT-   The fiscal year 1998 EnPPAs for Illinois, Indiana, and Minnesota
ABILITY            we reviewed included core performance measures, specifically or
                   by reference. About 50 percent of performance measures in the
                   agreements met all four criteria (quantifiable, verifiable,
                   measurable, and time specific). The remaining performance
                   measures, which included measures for state funded activities, did
                   not meet at least one of the four criteria. We also noted that
                   Illinois and Minnesota EnPPAs clearly showed a move toward
                   outcome measures. Wisconsin’s EnPPA was largely based on
                   activity measures, with virtually no outcome measures.

                   Program and grant officials reviewed costs for reasonableness with
                   commitments prior to award and approval of grant applications.
                   Our review showed that PPG budgets were tied to EnPPA
                   commitments.




                                    14

                                                                  Report 2000-P-00008
                                           Improving Region 5's EnPPA/PPG Program



BETTER MEASURES
CAN IMPROVE       Development of performance measures is a difficult and resource
ACCOUNTABILITY    intensive task. State capacity to develop performance measures
                  varies. For example, Minnesota had 537 measures, 63 percent of
                  which met all four criteria (quantifiable, verifiable, measurable,
                  and time specific), Wisconsin had 180 measures, 29 percent of
                  which met all four criteria. Many of Minnesota’s measures are to
                  satisfy certain state reporting requirements. The quantity alone is
                  not an indication of the quality of the measures. However, the
                  quantity of measures does indicate the time and effort a state has
                  devoted to developing measures.

                  Region 5 needs an objective basis to evaluate state environmental
                  programs. Without better measures, regional officials have a
                  difficult time assessing environmental results due to variations
                  among states. Even with the minimum core performance measures
                  there will still be varying abilities and information among states.
                  Regional officials have no consistent and comprehensive basis to
                  determine whether environmental programs are moving toward
                  achieving environmental results. Regional officials need to be able
                  to make an assessment of state programs, identify weaknesses, and
                  hold states accountable for improving those weaknesses. Without
                  ramifications, such as withholding funding, there is no incentive
                  for states with weak programs to improve.


CONCLUSION
                  Region 5 EnPPAs provide some accountability but there is room
                  for improvement. Some Region 5 EnPPAs we reviewed included
                  commitments that were primarily output measures. Although
                  activity or output measures can provide valuable information, they
                  do not reflect environmental improvements and results. Outcome
                  measures with appropriate indicators and baseline data are needed
                  to adequately assess environmental results. The EPA’s view is
                  that a mix of outputs and environmental measures is necessary to
                  demonstrate accountability under NEPPS. Region 5 should
                  continue efforts to work with recipients in developing good
                  outcome measures that are time specific, quantifiable, measurable,

                                    15

                                                                  Report 2000-P-00008
                                           Improving Region 5's EnPPA/PPG Program

                  and verifiable. Without EnPPAs that clearly demonstrate adequate
                  accountability, the Region cannot use them to hold recipients
                  accountable.

RECOMMENDATIONS
                  We recommend that the Regional Administrator:

                  3-1.   Require regional EnPPA team members to review
                         performance measures during negotiations to evaluate
                         whether measures are time specific, measurable,
                         quantifiable, and verifiable. Team members should work
                         with state officials to develop measures that meet these
                         four criteria.

                  3-2.   Instruct the Senior Leadership Team to encourage National
                         Program Managers and regional program staff to move
                         more toward outcome measures rather than just activity or
                         output measures.

                  3-3.   Require regional program managers to make development
                         of outcome measures with recipients a priority. For
                         example, provide EnPPA team members with the resources
                         to develop and seek out good examples of outcome
                         measures for reference by all regional and recipient staff.

AGENCY COMMENTS
AND ACTIONS       The Region concurred with these recommendations and will amend
                  the “Region 5 EnPPA/PPG Process” document by March 31, 2000
                  to emphasize the need to evaluate whether proposed measures meet
                  the four criteria. The Region acknowledges that it has little control
                  over the required Core Performance Measures.

                  The Region agrees that development of outcome measures is a
                  priority and will address this topic in the next meeting with all
                  Region 5 NEPPS states. The Region 5 NEPPS workgroup will
                  also undertake a project to find good examples of outcome
                  measures to present at this meeting.




                                    16

                                                                  Report 2000-P-00008
                                        Improving Region 5's EnPPA/PPG Program

OIG EVALUATION
                 The Region’s proposed actions, when implemented will address the
                 findings and recommendations.




                                 17

                                                             Report 2000-P-00008
                                           Improving Region 5's EnPPA/PPG Program

                        CHAPTER 4
             Changes Needed to Assess Use of Funds

                   Regional oversight ensures that recipients accomplish work plan
                   objectives. However, limited post-award review of PPGs prevents
                   officials from being able to assess whether funds are used
                   efficiently and effectively. Post-award grants management was a
                   fiscal year 1998 Agency level material weakness and Region 5
                   material weakness. The Region 5 Acquisition and Assistance
                   Branch recently developed a written policy that, when
                   implemented, should provide additional financial accountability
                   and increase the likelihood that funds are used efficiently and
                   effectively. Further changes are needed to improve Region 5
                   program level confidence in the work plans.

REGULATIONS AND
PPG GUIDANCE       Regulations require PPG recipients to prepare performance
                   reports.
DEFINE EPA GRANT   PPG project officers are required to review the reports and provide
OVERSIGHT          the recipient with an evaluation of findings. As part of the
                   Region's and recipients’ negotiation of work plan commitments,
                   PPG guidance states that the Region and recipients should
                   establish procedures that EPA and the recipient will use for
                   evaluating accomplishments, discussing progress, and making
                   adjustments to meet milestones.

                   PPG guidance established procedures for financial management
                   and reporting. For example, recipient fiscal control and
                   accounting procedures must be sufficient to permit preparation of
                   Financial Status Reports for PPG awards. PPG recipients must
                   maintain accounting and financial records that adequately identify
                   the source (i.e., federal funds and match) and application of funds
                   provided for PPG activities. These records should contain relevant
                   information such as obligations, unobligated balances, outlays,
                   expenditures, and program income. However, PPG costs will not
                   be tracked to each of the original individual categorical source(s)
                   of grant funding.



                                    18

                                                                  Report 2000-P-00008
                                                                  Improving Region 5's EnPPA/PPG Program

                                    PPG guidance also includes detailed information on match
                                    calculations. The required cost share (based on the match or
                                    maintenance of effort requirements of the categorical grants
                                    included in the PPG) will be the same under PPGs as under
                                    categorical grants. However, EPA may determine that there are
                                    exceptional circumstances justifying a reduction in cost share for a
                                    PPG for the year that the PPG is awarded. The recipient’s
                                    minimum cost share requirement applies to the entire grant.
                                    Recipients must maintain adequate financial records of their cost
                                    share.


REGION 5 OVERSIGHT
                                    Region 5 officials did a good job of using year-end performance
                                    reports and self-assessment reports. Programs used state midyear,
                                    year-end, and self assessment reports as an oversight tool to
                                    evaluate whether states and EPA accomplished goals. Region 5
                                    officials also did a good job of oversight as part of day-to-day
                                    interactions with states. This has changed little since the
                                    introduction of EnPPAs/PPGs.

                                    Grant officials have focused resources on tribal grant issues. To
                                    help ensure that state grant issues are not ignored, Acquisition and
                                    Assistance Branch officials recently developed a post-award grant
                                    policy that, when implemented, will: (1) provide more financial
                                    accountability, (2) assure that grant funds are spent appropriately,
                                    and (3) address the post-award process material weaknesses. For
                                    example, the new policy calls for a regional team, consisting of
                                    resource management division and program officials, to visit the
                                    recipients every two years and provide guidance and assistance as
                                    needed2.

                                    The state match calculations for Illinois, Indiana, Minnesota, and
                                    Ohio were accurate for all programs, except the air program. We


         2
           According to the policy, recipients will be categorized and selected by award amount and type. The three
categories are: under $100,000, $101,000 to $1 million, and over $1 million. Recipients will also be categorized
by state, tribe and other. At least two recipients in each category will be selected for these administrative/financial
reviews. Sites selected for visits will be based on recipient performance and compliance with grant requirements.

                                                          19

                                                                                              Report 2000-P-00008
                                                   Improving Region 5's EnPPA/PPG Program

                           were unable to determine if the air program state match amounts
                           were accurate because the air program project officers did not use
                           the same calculation method when calculating state match
                           amounts. However, the states all matched at least 40 percent and
                           there was no financial impact. Regional officials have recently
                           developed a calculation sheet that will help ensure consistency in
                           match calculations for future PPGs and clarify the match
                           calculation requirements. Air officials also believe the proposed
                           revisions to 40 CFR Part 35 will provide clearer guidance on how
                           to calculate the state match.

                           Some Region 5 officials have a lack of confidence in the
                           accountability provided by the EnPPA/PPG process. For example,
                           some regional officials see the reduced reporting of commitments
                           in the EnPPAs as a drastic reduction in accountability. This made
                           it difficult for these officials to support the EnPPA/PPG
                           negotiation process.


DIFFICULT TO ASSESS
PROGRAM             It is difficult for regional officials to assess whether states are
                    spending PPG funds efficiently and effectively. Changes are
                    needed to improve regional staff member confidence in the
                    accountability provided by EnPPAs/PPGs. Future implementation
                    of the post-award grant policy will help provide financial
                    accountability. Finally, air program staff use of the calculation
                    sheet will help ensure that the match is calculated consistently for
                    all Region 5 states.

RECOMMENDATIONS
                           We recommend the Regional Administrator:

                           4-1.   Develop regional guidance on what, at a minimum, should
                                  be included in an EnPPA to provide accountability.

                           4-2.   Hold staff accountable for implementing the Acquisition
                                  and Assistance Branch post-award grant policy.




                                            20

                                                                          Report 2000-P-00008
                                          Improving Region 5's EnPPA/PPG Program

                  4-3.   Require air program staff to use the calculation sheet until
                         revisions to 40 CFR Part 35 are finalized.

AGENCY COMMENTS
AND ACTIONS       The Region concurred with the recommendations. The Region 5
                  NEPPS Workgroup will hold informational sessions with each
                  program office before August 31, 2000 to encourage a common
                  approach to determining whether measures (and EnPPAs) provide a
                  minimum standard of accountability.

OIG EVALUATION
                  The Region’s actions, when implemented will address our findings
                  and recommendations.




                                   21

                                                                  Report 2000-P-00008
                                             Improving Region 5's EnPPA/PPG Program

                          CHAPTER 5
                 Other Matters: Changes Needed
               to Meet the Intent of the Results Act

                    EPA’s Results Act structure allows for some activities supporting
                    EnPPAs/PPGs to be charged under more than one goal. The
                    Results Act was implemented to more accurately account for costs
                    associated with program goals and subobjectives. Activities to
                    develop EnPPAs/PPGs are multimedia, and there is no funding
                    allocated for EnPPA/PPG activities at the regional level. Also, due
                    to an inherent conflict between PPG reporting and the Results Act,
                    funding distributed to the states through PPGs will be reported
                    under the Results Act based on budgeted amounts, not actual
                    expenditures. Without changes, Agency reports of costs associated
                    with the PPG subobjective will be understated, and reports will be
                    misleading.

RESULTS ACT
REQUIREMENTS        The Results Act established a system to set goals for program
                    performance and to measure results. The intent is to improve the
                    efficiency and effectiveness of Government programs. EPA
                    restructured the budget in 1999 to link activities and resources
                    using a new system of goals, objectives, and subobjectives. EPA
                    used the same structure to implement Government cost accounting
                    standards to help ensure the integration of planning, budgeting, and
                    accountability. Under this system, subobjectives are used to
                    account for costs.

                    The EnPPA/PPG program has bounced around between several
                    Results Act objectives and subobjectives. Most recently, the
                    program is included under:

                           Goal 7–Expansion of Americans’ Right to Know About
                           their Environment,

                                   Objective 3–Enhance Ability to Protect Public
                                   Health, and


                                     22

                                                                   Report 2000-P-00008
                                             Improving Region 5's EnPPA/PPG Program

                                          Subobjective 4–Local and Small
                                          Government Outreach.

                    This is a Headquarters only objective and subobjective. There is
                    no funding associated with the objective and subobjective at the
                    regional level.

                    The Senate recently reported concerns that funding for key
                    programs often is divided into several goals or objectives with
                    little rationale for how the funding is allocated. Many program
                    activities easily could be justified under several goals or
                    objectives, leading to serious questions about budget
                    accountability. For example, regional official time spent on
                    development of EnPPAs/PPGs could fit under goals and
                    subobjectives for the various media programs, or the PPG
                    development subobjective.

                    The Results Act requires the Agency to issue its first performance
                    report using the new budget structure in March 2000. In reporting
                    on the cost of the activities related to the PPG subobjective, the
                    Agency needs to describe accurately the activities associated with
                    the subobjective. To prepare accurate reports under the Results
                    Act, EPA needs to ensure the budget structure accurately reflects
                    the activities and costs associated with development of
                    EnPPAs/PPGs.

                    When Congress first established the Results Act, one goal was to
                    increase the ability to determine program costs. For example, all
                    activities and costs charged to EPA’s clean air goal should give an
                    indication how much it costs EPA to carry out an air program.
                    Congressional officials expect Results Act reports to indicate how
                    much a given program or goal costs.

EnPPA/PPG PROGRAM
AND RESULTS ACT     Regional officials working on EnPPAs/PPGs are not associated
CONFLICT            with the Results Act goal that reflects the work they actually do.
                    One official, who spent all of her time on EnPPAs/PPGs, found
                    that her time was charged to enforcement. Another official, whose
                    time was charged to Superfund, led development of the Wisconsin


                                     23

                                                                   Report 2000-P-00008
                         Improving Region 5's EnPPA/PPG Program

agreement. Other EnPPA team leaders spending time on
EnPPA/PPG development, which is essentially multimedia, also
represented only their media program from an accounting
perspective. An OIG audit in Region 8, found that regional
officials allocated time spent on EnPPAs/PPGs evenly across all
media programs using a cost pool.

An inherent conflict exists between the reduced reporting
requirements of the EnPPA/PPG program and the additional data
required to support the Results Act. The Results Act requires
reporting on an activity level that PPG guidance does not require.
Guidance does not require states to report how the money was
spent for each program. This has been a source of great concern to
both state and regional officials. State officials worry that regional
officials will demand the detailed information. Regional officials
worry that the Results Act reporting will be misleading. To
address these concerns, the Region 5 Resource Conservation and
Recovery Act program has created a cross-walk between Results
Act activities and core performance measures. Regional officials
are also allocating PPG fund draw-downs across programs in the
same proportion as funds were originally awarded. For example,
if the air, water and waste programs represented 35 percent, 35
percent, and 30 percent (respectively) of the original grant award,
the PPG fund draw-downs would be allocated along the same
percentages.

Without changes, EPA reports under the Results Act will not
correctly match accomplishments to the level of effort (i.e.,
resources) used. EPA will understate the costs for the PPG
subobjective, because the costs will not reflect regional official
time spent on EnPPA/PPG development. Reporting under the
Results Act will also be misleading because some information will
be based on budgeted costs only, not actual expenditures as
implied.




                  24

                                                Report 2000-P-00008
                                          Improving Region 5's EnPPA/PPG Program

RECOMMENDATIONS
                  We recommend the Regional Administrator:

                  5-1.   Work with Office of the Chief Financial Officer officials to
                         determine the best placement of regional work on
                         EnPPAs/PPGs within the Results Act.

                  5-2.   Consider ways to allocate time spent on development of
                         EnPPAs/PPGs within the region, so that reports accurately
                         depict activities and the associated goals.

                  5-3.   Clearly indicate in reports that feed Results Act reporting
                         that the information presented is based on budgeted
                         amounts, not actual expenditures.

AGENCY COMMENTS
AND ACTIONS       The Region concurred with these recommendations. Specifically,
                  the Region will continue to work with the Office of the Chief
                  Financial Officer and participate on the national planning network
                  to assess and improve the Agency’s budget and accounting system.
                  Regional officials believe that regional work on EnPPAs/PPGs
                  should remain within regional programs, placing resources within
                  the environmental goals they support as much as possible.

                  The Region will also implement a periodic assessment of the
                  amount of time people spend working on aspects of the NEPPS
                  program (for example: negotiation, processing, and follow-up).

                  The Region acknowledges that it may need to conform to
                  nationally-made decisions on portraying Results Act information.

OIG EVALUATION
                  The Region’s actions, when implemented will address the findings
                  and recommendations.




                                   25

                                                                 Report 2000-P-00008
                                          Improving Region 5's EnPPA/PPG Program

                                                                           Exhibit 1
                                                                          Page 1 of 2

                  Scope and Methodology
EFFECTIVE
IMPLEMENTATION   Our first objective was to determine if Region 5 effectively
                 implemented the EnPPA/PPG program to ensure that recipients
                 accomplished overall PPG program goals. Our review of Region
                 5's EnPPA/PPG program included:

                 (1) Interviewing Region 5's NEPPS Coordinator, EnPPA Team
                 Leaders, and PPG project officers regarding their roles and
                 responsibilities related to the EnPPA/PPG program.

                 (2) Reviewing national and regional guidance and policy to
                 determine program requirements.

                 (3) Interviewing officials representing all Region 5 states and one
                 tribe (Minnesota Fond du Lac Band of Chippewa).

ADEQUATE
ACCOUNTABILITY   Our second objective was to determine if Region 5 negotiated
                 work plans that included adequate accountability. Our review of
                 recipients' PPG work plans included:

                 (1) Reviewing criteria describing the elements of a work plan.

                 (2) Interviewing regional officials.

                 (3) Selecting and reviewing a judgmental sample of EnPPAs. We
                 selected the 1998 EnPPAs from Illinois, Minnesota, and
                 Wisconsin. We did not select Ohio because state officials had
                 recently decided not to continue. We did not select Indiana
                 because the state had previously been reviewed as part of the joint
                 OIG/Region 5 management assessment review.




                                   26

                                                                 Report 2000-P-00008
                                       Improving Region 5's EnPPA/PPG Program

                                                                       Exhibit 1
                                                                      Page 2 of 2

OVERSIGHT
              Our third objective was to determine if Region 5's oversight
              ensured that recipients met work plan commitments and used
              funds efficiently and effectively. Our review of Region 5's
              oversight included:

              (1) Reviewing criteria that described the appropriate use of funds,
              specifically for PPGs.

              (2) Interviewing regional officials.

              (3) Reviewing a sample of PPG files.

              (4) Selecting and reviewing a sample of EnPPAs and self-
              assessments. We reviewed the same EnPPAs identified for
              objective 2 and the corresponding self-assessments.

OTHER STEPS
              In addition to our audit objectives, we conducted steps to assess
              the EnPPA/PPG program placement within GPRA. We also
              looked at internal controls by reviewing Federal Managers’
              Financial Integrity Act reports. Finally, we interviewed regional
              officials and reviewed documents to learn how the EnPPA/PPG
              program fit into regional operations.




                                27

                                                             Report 2000-P-00008
                                                                        Improving Region 5's EnPPA/PPG Program

                                                                                                                    Appendix 1
                                                                                                                    Page 1 of 7

                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      REGION 5
                            77 WEST JACKSON BOULEVARD
                                CHICAGO, IL 60604-3590

                                                        FEB 14 2000
                                                                                 REPLY TO THE ATTENTION OF:

                                                                                       R-19J
MEMORANDUM

SUBJECT:           Draft OIG Report No. 00XXXXXX
                   Improving Region 5's EnPPA/PPG Program
FROM:              Francis X. Lyons
                   Regional Administrator
TO:                Charles M. Allberry
                   Acting Divisional Inspector General for Audits
                   Northern Region
Thank you for the opportunity to comment on the draft report on Region 5's Oversight of the
Environmental Performance Partnership Agreements (EnPPA) Performance Partnership Grants
(PPG) Program. Since the Region undertook performance partnerships in 1995 we have
endeavored to continually improve our approach to this new system. In short, we want to get
environmental results, we want to measure the results, and we want to improve the process by
which we work with states and release funds to get these results. I hope you agree that our
efforts have been worthwhile.
Still, as the report notes, barriers remain within the Region and among our headquarters and
state agency partners. We hope the attached comments on the draft report will help hone the
review your staff has conducted and clarify certain issues raised in the draft report. The response
includes comments on the factual accuracy of issues addressed in the report, the Region’s
concurrence or nonconcurrence with the recommendations and plans for taking corrective action,
with milestone dates.
Please contact Howard Levin at 6-7522 to schedule an exit conference.

cc: Region 5 Senior Leadership Team
    Howard Levin
    Anna Miller

             Recycled/Recyclable • Printed with Vegetable Oil Based Inks on 50% Recycled Paper (20% Postconsumer)



                        The original response was signed by Francis X. Lyons.


                                                            28

                                                                                                             Report 2000-P-00008
                                                         Improving Region 5's EnPPA/PPG Program

                                                                                              Appendix 1
                                                                                              Page 2 of 7

                          Region 5 Comments on Draft OIG Report
                        On Improving Region 5's EnPPA/PPG Program


Executive Summary
Page ii, Communication Key to Success - The first sentence should begin with "Region 5 ,"
striking " The EnPPA/PPG program in..." to include all participants in EnPPA negotiation and
management, to make this comment more inclusive. The Region’s "program" includes all those
in media programs who are working with States under an EnPPA or PPG paradigm.
Page ii, first full paragraph – The Region does not agree with the statement "[a]s a result, two
states and one tribe that have participated in the program in past years have either dropped out or
are re-evaluating their continued participation." One state, Ohio, elected not to pursue an EnPPA
or PPG for FY 2000; however, the state advised the Region that the reason for not going forward
was that Ohio EPA’s new management needed time to determine whether changes would be
 made to the state’s environmental priorities. Ohio did not inform U.S. EPA that it was dropping
out of the program due to communications problems with the Region. Ohio is the only state that
dropped out of the program this year.
Page iii– The Region believes that EnPPA development activities need to be accounted for other
than under specific media goals. We believe that media goals should contain the elements
required to manage them, as programs always have in the past. The issue is, we believe, not with
how EPA budgets to fund the administration of work on EnPPAs and PPGs. The issues raised
with GPRA have more to do with how States can or cannot account for funds along GPRA
subobjective lines, as is described elsewhere in the report. We do agree that the Region needs to
be able to quantify the resource expenditures on developing EnPPAs and PPGs.

Chapter 1

Page 3, first full paragraph, last sentence –Region 5 suggests revising this sentence to state "This
new partnership should also enable EPA and its partners to move beyond relying solely on
numbers of permits issued,...." This change is suggested to clarify that the system envisioned by
NEPPS includes a full spectrum of measures, including numbers of permits, as well as measures
reflecting changes in environmental quality.

Page 4, second paragraph after the table - The description of the Region’s NEPPS structure fails
to include the expectation of Regional program roles beyond State teams and their members.
The role of program staff is described in the EnPPA/PPG Process (updated 6/99). The system
was designed to leave major programmatic negotiations and decisions in the programs, where the
expertise on environmental issues and program management remains.




                                                29

                                                                                    Report 2000-P-00008
                                                         Improving Region 5's EnPPA/PPG Program

                                                                                              Appendix 1
                                                                                              Page 3 of 7


Chapter 2
Page 7, first paragraph - Please omit "The EnPPA/PPG program in..." so that sentence begins
"Region 5 has not..." to include all participants in EnPPA negotiation and management to make
this comment more inclusive. The Region’s "program" includes all those in media programs
who are working with States under an EnPPA or PPG paradigm.
We agree that the selected lack of team member authority to negotiate for their programs has
been a barrier. A corollary that should be reflected here is that there is sometimes a lack of
program staff participation in or contribution to the State team’s work. In other words, it is a two
way street for information into and out of the State teams, and we need to improve the flow in
both directions.
As stated in earlier comments, the Region does not agree with the statement "[a]s a result, two
states and one tribe that have participated in the program in past years have either dropped out or
are re-evaluating their continued participation." It would be more accurate to say that one state
has withdrawn from an EnPPA/PPG and another may have considered withdrawing (although
the Region has not been informed of this). We also ask that the report recognize that there are,
as we have been told, several distinct reasons for the state’s withdrawal, some of which have to
do with state agency management changes.
Page 8, first bullet –The Water Division notes that immediately following the identification of
quality assurance issues during the 1999 Ohio EnPPA process, the Region 5 EnPPA and PPG
lead staff worked with all parties involved to resolve the issues. The Region included a term and
condition as part of the FY 1999 PPG to address quality assurance issues with the Clean Water
Act Section 106 program and initiated a process to improve communications among programs
and states.
Page 8, second bullet –The report should include which Illinois Environmental Protection
Agency (IEPA) PPG application was reviewed and used as the basis for the information
presented. Based on the Executive Summary, it is assumed it was the FY 1999 application. The
report should include additional information to clarify that the "over allocation of water program
funds" in the IEPA PPG application was solely related to the Public Water Supply system
(PWSS) program. IEPA’s application was $16,500 above the allotment from U.S. EPA
headquarters. This was not a significant discrepancy, and the Region believes the PPG award
could have been initiated without receipt of a revised application from IEPA.
Page 9, first bullet –The Region (Water Division and RMD) conducted numerous discussions
with the Fond du Lac Tribe regarding its QAPP, so it is unclear why the draft report states there
were "18 months with no feedback." The QAPP was not approvable as submitted because it was
based on a model for a Superfund site, not for water-related investigations; there were therefore
many issues for the Tribe to address to make the QAPP approvable.

                                                 2


                                                30

                                                                                    Report 2000-P-00008
                                                        Improving Region 5's EnPPA/PPG Program

                                                                                               Appendix 1
                                                                                               Page 4 of 7

Page 9, discussion of barriers –Region 5 notes that an additional reason why oversight and
reporting requirements may not have been reduced as significantly as states expected as a result
of NEPPS is that many Region 5 programs had already reduced reporting requirements prior to
NEPPS. A joint Region 5–Illinois EPA project that resulted in a chart of all programs’ reporting
requirements and their source demonstrated that significant reporting reductions had already
been achieved. Most remaining requirements are required by statute, regulation or national
reporting systems.
Page 9, last paragraph and page 10 – Only one Region 5 state, Ohio, has dropped out of the PPG
program.
Page 10, first partial sentence - Please clarify that the "internal management changes" were
within the Ohio EPA.
Page 10, Conclusion –An additional reason why some of the benefits EPA and states expected
from PPGs have not been realized is that there have not been many requests from states to shift
funds in a PPG from traditional base program activities.

Recommendation 2-1-- The Region concurs with the recommendation and has, since the events
cited occurred, taken this step to improve the quality assurance process. (It is assumed this
recommendation refers to Quality Management Plans (QMPs), since QAPPs are no longer
required.) The review role for multi-media QMPs is shared between the Resources Management
Division (RMD) and program offices, with the RMD serving as the lead for the reviews through
the Quality Assurance (QA) Core. Program offices provide input through their division
representatives to the Regional QA Core. The Regional QA Core established a "Procedure for
Review and Approval of All State Agency Quality Management Plans (QMPs)" on March 5,
1999. In May 1999 the Water Division developed supplemental procedures ("Steps in the QMP
Review Process") to use internally in reviewing state-submitted QMPs. These procedures are
being updated and will be finalized by March 31, 2000.
Regarding the QAPP for the Fond du Lac Tribe, the Quality Assurance Manager for the Water
Division will work with all interested parties to conduct an in-depth review of the events that
occurred at the time the Tribe submitted its QAPP for approval. The QA Manager will inform
the Water Division Director of suggested modifications to the Region 5 and Water Division
review procedures by March 31, 2000.
The current reorganization of the Water Division should also improve the timeliness of
communication and identification and resolution of QA issues.

Recommendation 2-2--The Region concurs with the need to ensure timely elevation of concerns
to the Region 5 Senior Leadership Team. The document entitled "Region 5 EnPPA/PPG
Process", Attachment II establishes roles and responsibilities for the EnPPA/PPG process,

                                                3



                                               31

                                                                                  Report 2000-P-00008
                                                        Improving Region 5's EnPPA/PPG Program

                                                                                            Appendix 1
                                                                                            Page 5 of 7

including elevation of issues to SLT from the EnPPA Team Lead through a state’s sponsoring
SLT lead. The Region will continue to stress the need for coordination and elevation of issues
that could affect adversely an entire EnPPA/PPG.

Recommendation 2-3--The Region concurs with this recommendation and will amend the
"Region 5 EnPPA/PPG Process" by March 31, 2000 to include a discussion of the need to
continue discussions with a state during the period between finalization of the EnPPA and
payment of the grant. In addition, the State/EPA Grants Workgroup has discussed this issue and
the award process and is developing a regional policy to ensure states receive a major portion of
their allotments as soon as possible.

Recommendation 2-4--Region 5 concurs with this recommendation and notes it held a meeting
with participating NEPPS states in November 1998 to discuss best practices and share other
information. The Region will hold another meeting during 2000 where we will discuss best
practices and development of environmental outcome measures The Region also gathers best
practices information through participation at national meetings and through national
workgroups.

Chapter 3
Page 12, first paragraph - Since measures have different origins, national or regional, Region 5's
ability to change and improve the measures varies in degree. Therefore we ask that the report be
more specific in referring to measures. Please clarify which measures are referred to by the
statement "...the quality of measures in the workplan varied." Does it refer to national core
performance measures, regional measures, perhaps State generated measures or all measures?
Page 13, Better Measures Can Improve Accountability - We believe the report should clarify the
difference in the numbers of measures between the two States to avoid erroneous conclusions.
For instance, the statements here imply mistakenly that the Region requires different numbers of
measures from different States. It is not immediately obvious that the difference in number of
measures may be due to the use the State has for the EnPPA. For example, Minnesota PCA
attempts to use its EnPPA to satisfy certain State reporting requirements that are the source of
many of the 537 measures.

Conclusion–The Region notes the conclusion discusses both accountability and managing for
environmental results. We interpret the conclusion to mean that in order to fulfill the
expectations of NEPPS, the Region and states need to develop environmental outcome measures
that meet the four criteria (time specific, quantifiable, measurable and verifiable) and thus
provide sufficient accountability. These measures will not, however, totally replace output
measures. The U.S. EPA’s view is that a mix of outputs and environmental measures is
 necessary to demonstrate accountability under NEPPS; while outputs alone might demonstrate
sufficient accountability under a system other than NEPPS, the expectation of NEPPS is that
improved environmental results are an important–but not the only–measure of accountability.
                                                   4



                                               32

                                                                                  Report 2000-P-00008
                                                         Improving Region 5's EnPPA/PPG Program

                                                                                               Appendix 1
                                                                                               Page 6 of 7

Recommendation 3-1--The Region concurs with this recommendation to the extent it applies to
measures developed jointly by the Region and states. It is important to recognize that U.S. EPA
headquarters program offices require EnPPAs to include core performance measures (CPMs),
unless a state demonstrates a compelling reason not to report on a CPM. Headquarters develops
CPMs, and the Region has little control over whether they are time specific, measurable,
quantifiable and verifiable. For other measures developed jointly by the Region and a state, the
Region will endeavor to ensure measures meet these four criteria. The Region will also amend
the Region 5 EnPPA/PPG Process" document by March 31, 2000 to emphasize the need to
evaluate whether proposed measure meet the four criteria.
In addition, the Region and State Agencies have had several discussions on the "burden
reduction" issue which is somewhat related to the nature of measures. Work on this topic, which
will be discussed at the May 2000 State Directors Meeting, will also help towards developing
appropriate measures that meet the four criteria.
The recommendation should be changed, however, to encompass all responsible parties by
stating "Require regional EnPPA team members and appropriate program staff to review
performance measures during negotiations..."

Recommendation 3-2 --The Region concurs with this recommendation.

Recommendation 3-3 --The Region agrees that development of outcome measures is a priority.
The Region plans to address this topic in its next meeting with all Region 5 NEPPS states. The
Region 5 NEPPS workgroup will also undertake a project to find good examples of outcome
measures to present at this meeting.

Chapter 4
Page 17, Second Paragraph - This paragraph states that limited resources are focused on tribal
grant issues, but concludes that the post-award policy provides for visits to the States every two
years. This discussion should focus on how the policy will be applied to the Tribes.

Recommendation 4-1--The Region agrees with the need to ensure a common understanding
among programs about accountability above and beyond the standards set forth in grant
regulations. The different requirements of different programs makes it difficult, however, to
develop regional guidance on minimum standards of accountability. The Region 5 NEPPS
Workgroup will hold informational sessions with each program office before August 31, 2000 to
encourage a common approach to determining whether measures (and EnPPAs) provide a
minimum standard of accountability.

Recommendation 4-2--The Region concurs with this recommendation.

                                                 5




                                                33

                                                                                    Report 2000-P-00008
                                                         Improving Region 5's EnPPA/PPG Program

                                                                                              Appendix 1
                                                                                              Page 7 of 7

Recommendation 4-3--The Region concurs with this recommendation.

Chapter 5
Page 20, last Paragraph - The report should clarify that there are two issues being identified (1)
that Regional work on EnPPAs/PPGs may not be reflected well in the Results Act goals, and (2)
that where funds given to States are concerned, Results Act reporting is based on budgeted
amounts not expenditures, due to the nature of the PPG approach whereby States are not
required to report on the same activity level.

Recommendation 5-1 - The Region will continue to work with OCFO and participate on the
national Planning Network to assess and improve the Agency's budget and accounting system,
but we do not agree that EnPPA/PPG work must be placed any differently within the GPRA
goals of U.S. EPA. The current direction within the Agency to place resources within the
environmental goals they support as much as possible. For example, there was a recent exercise
to move part of the Goal 10 resources back into the environmental Goals which they supported.
Region 5 believes it is appropriate for regional resources used in the development of EnPPA
agreements to be found under the various environmental goals as our efforts clearly will impact
the environment through the implementation of these agreements. We see the HQ resources for
NEPPS under Goal 7 to more likely be considered administrative resources to support the overall
NEPPS program, without directly impacting any one agreement, thus being at least somewhat
more removed from environmental progress.

Recommendation 5-2 - Region 5 does agree that it is useful to have a mechanism to measure the
resources associated with using NEPPS as a tool to further environmental progress. Therefore,
the Region will implement periodic assessment of the amount of time people spend working on
aspects of the NEPPS program ( This means negotiation, processing, follow-up; program
implementation is exempted because it is carried out regardless of NEPPS). This will allow us to
develop some sense of the resource investment NEPPS requires as a tool, as compared to other
grant processes, and whether process improvements can be made such that the NEPPS process
becomes more streamlined and efficient and yet still achieves the same or better environmental
results.

Recommendation 5-3 - The Region agrees with this recommendation, but may need to conform
to nationally-made decisions on portraying Results Act information.




                                                 6




                                                34

                                                                                   Report 2000-P-00008
                                                    Improving Region 5's EnPPA/PPG Program

                                                                                  Appendix 2
                                                                                  Page 1 of 2

                                  DISTRIBUTION
Headquarters

      Agency Follow-up Official (3101), Attn: Assistant Administrator for Administration and
            Resource Management
      Agency Follow-up Coordinator (3304), Attn: Director, Resource Management Division
      Deputy Associate Administrator for Office of State and Local Relations (1306)
      Headquarters Library (3404)

Region 5

      Regional Administrator (R-19J)
      Senior Leadership Team
      Audit Follow-up Coordinator (MFA-10J)
      Comptroller (MF-10J)
      Public Affairs (P-19J)
      NEPPS Workgroup
      Library (PL-12J)

Region 5 States

      Director, Illinois Environmental Protection Agency
      Environmental Policy Advisor, Illinois Environmental Protection Agency
      Commissioner, Indiana Department of Environmental Management
      Director, Office of Planning and Assessment, Indiana Department of Environmental
             Management
      Director, Michigan Department of Environmental Quality
      Deputy Director, Michigan Department of Environmental Quality
      Commissioner, Minnesota Pollution Control Agency
      PPA Coordinators, Minnesota Pollution Control Agency
      Director, Ohio Environmental Protection Agency
      Program Liaison, Ohio Environmental Protection Agency
      Secretary, Wisconsin Department of Natural Resources
      PPA Coordinator, Wisconsin Department of Natural Resources



                                             35

                                                                          Report 2000-P-00008
                                                    Improving Region 5's EnPPA/PPG Program

                                                                               Appendix 2
                                                                               Page 2 of 2

Region 5 Tribe

      Tribal Chair, Fond du Lac
      Director, Division of Resources Management, Fond du Lac
      Director, Environmental Services, Fond du Lac

Office of Inspector General

      Inspector General (2410)
      Office of Planning, Analysis and Results (2421)
      Deputy Assistant Inspector General for External Audits (2421)
      Acquisition and Assistance Audit Staff (2421)




                                             36

                                                                       Report 2000-P-00008
